              U.S. Department of Energy
              Office of Inspector General
              Office of Audit Services




  Special Report

  Loan Guarantees for Innovative
  Energy Technologies




DOE/IG-0777                          September 2007
                              Department of Energy
                                   vvast~lngton,U L   LU3d3

                                  S e p t e m b e r 1 9 , 2007


MEMORANDUM FOR THE SECRETARY

FROM:
                             Inspector General

SUBSEC'T:                    INFORMATION: Special Repol-t on "Loan Guarantees for
                             Iilnovative Energy 'Technologies"

BACKGROUND

'Title XVlI of the Energy Policy Act of 2005 authorized the Departinent of Energy to
provide loan guarantees for projects that "avoid, reduce, or sequester air pollutants or
;~~lthropogenit.elnissions o l grecnlluuse gases and ei~lploy~ I S W01- significai~iljii l ~ i p r o ~ c d
energy production techilologies as compared to coininercial technologies in service in the
Uilitcd States." Cui-rei~tly,the Department has $4 billion in loan guarantee authority and
has requested $9 billion in Fiscal Year 2008. Although the Department is proposing that
sponsors receiving guarantees under the program make a significant equity ii~vestmentin
the project, under the Act, the Departineilt may guarantee up to 80 percent of total project
costs. This will result i11 significant risk to tlie Governinent and, therefore, the American
taxpayer.

The Depai-tmcnt has experience in the use of loan guarantees to advance the Nation's
energy sccurity. During the 1970s and 1980s' the Department made a number of loan
guarantees to foster domestic synthetic fuel capability, facilitate the collstruction of alcohol
production facilities and support the developmelit of various uses of geothermal power.
Due to a combination of administrative difficulties and changes in the energy market,
numerous projcct guarantees for coal gasification, ethaiiol plants and geothermal projects
defaulted and the sponsors abandoned their projects. The Office of Illspector General
(OIG) conducted this special review to identify lessons leariled froin prior Departmental
loail guarantee and related programs. We also sought information from other Federal
agencies with experience in such agreements. The Department has a unique opportunity to
apply the lessons learned from past experiences as it implements the new loan guarantee
program.

OBSERVATIONS

In reviewing audits of past govemn~entalloan guarantee programs, we found that the
agencies involved had not always exercised due dil~genceduring critical phases of the loan
guarantee process. Problems had been encountered during tlie origination, monitoring and
performance stages of the loail guarantee agreements. Specifically, agency officials had
not always:
           Evaluated proposals and potential sponsor's ability to perfonn and repay the
           loan;
       •   Identified and mitigated project risk;
       •   Monitored project performance to identify early warning signs of problems;
           and,
       •   Appropriately acted to protect the Government’s interest in the case of
           default.

It became clear to us that attention to detail during each phase of the loan guarantee
process was fundamental to achieving programmatic goals and managing the financial
risk to the Government.

In preparation for issuing the first loan guarantee during the first quarter of 2008, the
Department is in the process of finalizing a number of policies and procedures that will
constitute the framework for its loan guarantee program. Although there have been some
delays, the Department has taken a number of actions to implement the program,
including: (1) establishing a high-level Credit Review Board to, among other things,
develop program policies and procedures and to make recommendations to the Secretary
of Energy on the final approval of loan guarantees; and, (2) developing guidelines for
both the technical and financial evaluations of loan applications. During the course of
our review, the Department hired a loan guarantee program director with impressive
credentials and experience.

LESSONS LEARNED

The loan guarantee effort is slated to be a multi-year, multi-billion dollar program.
Programs of this size, complexity and potential political interest, carry with them certain
inherent financial and programmatic vulnerabilities. Under these circumstances, and
based on past experience, loan guarantee programs need to be closely managed. While
the actions taken by the Department to date are commendable, we concluded that there
are a number of additional steps that should be taken to foster the success of the loan
guarantee program. These include finalizing a staffing plan, developing risk mitigation
strategies, implementing and executing a monitoring system and promulgating
liquidation procedures.

                                     Program Staffing

In our discussions with other agencies, it was apparent that a capable and proficient staff
is essential toward establishing an effective loan guarantee program and minimizing
costly mistakes. Although the Department has utilized the expertise of employees
detailed from other agencies, at the time of our review a full complement of Federal staff
designated to administer the loan guarantee program was not in place and plans to utilize
technical experts to assist in the administration of the program had not been fully
developed. As the Department moves forward in reviewing pre-applications and
soliciting proposals for the official application process, staffing should be the first
priority in the establishment of a new loan guarantee office.

To assist in the establishment of its loan guarantee office, the Department proactively
queried other Federal agencies with large loan guarantee programs about both the

                                             2
organizational and staffing structure of their respective offices. Department officials
found that the U.S. Export-Import Bank, which in FY 2006 reported guaranteeing 736
loans valued at $8.2 billion, employed 76 individuals to administer its program. The
majority of the staff was assigned to the origination and portfolio management and
review departments. These included loan officers, legal counsel and various other
administrative staff. In addition, the loan guarantee program of the Overseas Private
Investment Corporation included 54 individuals, primarily loan specialists, legal counsel
and other specialists. According to the information available to us, the Investment
Corporation issued $6.3 billion in loan guarantees during FY 2006.

In addition to a well-qualified internal staff, we noted that other agencies utilized outside
experts to conduct technical, financial and legal evaluations of loan agreements. For
example, officials at the Export-Import Bank advised us that the Bank used outside
experts to conduct credit, engineering, legal and financial analyses to provide assurance
of the sponsors’ ability to repay loan guarantees and to determine the viability of
proposed projects. As a direct result of this rigorous process, the Export-Import Bank
claimed to have one of the lowest default rates on loan guarantees in the Federal
government. In our view, the Department should utilize the experience of other Federal
loan guarantee programs as models for its own staffing efforts.

                                     Risk Management

Past reviews at the Department and other Federal entities have disclosed that agencies did
not always act to effectively identify and mitigate risk when administering loan guarantee
or similar programs. In 2005, for example, we reviewed “Selected Energy Efficiency and
Renewable Energy Projects,” and found that a pre-award audit noted that a recipient’s
financial management system could not properly accumulate and report costs. Moreover,
the audit found that there were serious concerns about the project’s completion as a result
of the recipient’s poor financial condition. Although these risks were identified before
the agreement to fund the project was finalized, the Department did not act to mitigate
the financial risks associated with the project. Work ceased on the project before it met
its final objective when the recipient and the parent company filed for bankruptcy.
Although this review concerned a cooperative agreement, the circumstances illustrated
the need for aggressive risk management in the Department of Energy’s loan guarantee
initiative.

Our colleagues at the Department of Transportation OIG identified similar concerns. The
auditors found that Transportation’s Maritime Administration used waivers or
modifications that allowed the Maritime Administration to approve applications in which
borrowers did not meet all financial requirements, specifically relating to working
capital, long-term debt, net worth, and owner-invested equity. Although waivers
modifying financial requirements were permitted, the waivers allowed Maritime
Administration officials to assume greater risk in the loans that they guaranteed. The
Transportation OIG recommended a rigorous analysis of the risks that arose from
modifying loan approval criteria and subsequent initiatives to impose compensating
provisions on the loan guarantee. Examples of the compensating provisions included
greater collateral and/or higher equity contributions from the borrower.

                                              3
While risk varies by project, it became clear that a comprehensive risk assessment and
management strategy should be in place and fully functioning prior to issuing any loan
guarantees.

                                    Monitoring Strategy

In support of its objective to ensure full repayment of debt under the loan guarantee
program, the Department is proposing that participating lenders provide certain
eligibility, monitoring and performance services. Specifically, lenders will be
responsible for providing reviews and evaluations of a project, servicing and collection of
the loan, and ensuring that the collateral package securing the loan remains
uncompromised. At the time of our review, the Department had not finalized policy
regarding its role in monitoring loan guarantees. The lack of a rigorous Federal
monitoring effort can undermine success of the loan guarantee program.

A Department of Transportation review disclosed that, although required, its Maritime
Administration could not demonstrate that it had received annual and semiannual
financial statements, which may have alerted the agency to financial problems with
companies involved in loan guarantees. Between 1993 and 2000, financial statements for
one borrower showed that the company had net income in only three of the years and
that, over this period, it lost a total of $33.3 million. These financial conditions, among
other factors, ultimately caused the borrower to file for bankruptcy. In this case, the OIG
auditors found no evidence that the Maritime Administration had routinely requested or
performed analyses of the company’s financial statements or made systematic site visits
and inspections to verify progress. These are, in our view, basic monitoring steps, which
the Department should utilize in the administration of its loan guarantee program.

Similarly, reviews at other Federal agencies identified cases in which neither the agencies
nor responsible lenders had fully complied with established practices pertaining to
project monitoring and fund disbursement. An October 2006 loan guarantee review by
the Small Business Administration OIG, for example, found that the lender disbursed
loan proceeds directly to the borrower. The purpose was to purchase, among several
items, equipment and inventory. When the loan went into default, the lender was not
able to substantiate the use of $358,000 in loan proceeds. Although a site visit confirmed
that inventory was missing, based on the lack of documentation, the auditors could not
even confirm that inventory purported to have been purchased with the loan proceeds
ever existed.

Through our discussions with officials in other agencies with large loan guarantee
portfolios, all agreed that careful monitoring of both the financial and technical aspects of
loan guarantee projects are essential. The Export-Import Bank maintained a separate, in-
house monitoring division to oversee critical aspects of guaranteed projects. In
developing policies and procedures in this area, the Department should consider a similar
monitoring structure to stay abreast of changes in the financial condition of borrowers as
well as all other programmatic and technical matters that could impact specific loan
guarantees.

                                              4
                                        Liquidation

The Department should have in place a well-defined process to handle and enforce the
terms of its agreements, particularly with respect to restructuring, managing and
disposing of assets. A Department of Energy OIG review of the “Department’s
Collection Procedures for Defaulted Geothermal Loan Guaranties” identified delays of
up to two years in liquidating $9.5 million in collateral on three defaulted loans. The
review disclosed that although the Department had paid lenders $32.5 million on these
defaulted loans, it had not prepared final liquidation plans or notified the U.S. Justice
Department to obtain assistance in recovering amounts paid. As a result of these delays,
the collective value of the collateral decreased by approximately $2.7 million. The
Department also incurred over $690,000 in questionable lease, maintenance and
administrative costs.

Reviews by Inspectors General at other Federal agencies as well as those of the U.S.
Government Accountability Office also revealed problems in the handling of defaulted
assets. For example, in the case of one defaulted loan, Transportation’s Maritime
Administration conducted on-site inspections after a default. However, the inspections
were not conducted in time to properly assess the condition of equipment and
infrastructure. The Maritime Administration did not have a market appraisal for the
defaulted assets and relied on an interested party to determine the cost of making the
project viable. An appraisal of the assets immediately after default would have assisted
in preparing a strategy for offering the assets for sale. Although $2 million was received,
without an appraisal, it was unclear whether this was the maximum recovery that could
have been received.

CONCLUSION

Establishing and managing a sizable Federal loan guarantee program is a challenging
task. As this analysis of prior programmatic performance highlights, the establishment of
a robust set of administrative safeguards is essential if the loan guarantee program is to
be successful in its overall objective, which in this case, centers on the pressing issue of
meeting U.S. energy requirements.


cc: Deputy Secretary of Energy
    Chief of Staff
    General Counsel
    Chief Financial Officer




                                             5
                                                                    IG Report No. DOE/IG-0777


                                CUSTOMER RESPONSE FORM


The Office of Inspector General has a continuing interest in improving the usefulness of its
products. We wish to make our reports as responsive as possible to our customers' requirements,
and, therefore, ask that you consider sharing your thoughts with us. On the back of this form, you
may suggest improvements to enhance the effectiveness of future reports. Please include answers
to the following questions if they are applicable to you:


1. What additional background information about the selection, scheduling, scope, or
   procedures of the inspection would have been helpful to the reader in understanding this
   report?

2. What additional information related to findings and recommendations could have been
   included in the report to assist management in implementing corrective actions?

3. What format, stylistic, or organizational changes might have made this report's overall
   message more clear to the reader?

4. What additional actions could the Office of Inspector General have taken on the issues
   discussed in this report which would have been helpful?

5. Please include your name and telephone number so that we may contact you should we have
   any questions about your comments.

Name                                                Date


Telephone                                           Organization


When you have completed this form, you may telefax it to the Office of Inspector General at
(202) 586-0948, or you may mail it to:


                               Office of Inspector General (IG-1)
                                     Department of Energy
                                     Washington, DC 20585


                                  ATTN: Customer Relations
If you wish to discuss this report or your comments with a staff member of the Office of Inspector
General, please contact Judy Garland-Smith (202) 586-7828.

                                                6
